       DEPARTMENT of
          HEALTH and
      HUMAN SERVICES




                  Fiscal Year

                    2011

Office of Inspector General


   Online Performance Appendix
The Fiscal Year 2011 Online Performance Appendix is one of several documents that fulfill the
Department of Health and Human Services’ (HHS) performance planning and reporting requirements.
HHS achieves full compliance with the Government Performance and Results Act of 1993 and Office of
Management and Budget Circulars A-11 and A-136 through the HHS agencies’ FY 2011 Congressional
Justifications and Online Performance Appendixes, the Agency Financial Report, and the HHS Summary
of Performance and Financial Information Report. These documents are available at
http://www.hhs.gov/budget.


The FY 2011 Congressional Justification and accompanying Online Performance Appendixes contain the
updated FY 2009 Annual Performance Report and FY 2011 Annual Performance Plan. The Agency
Financial Report provides fiscal and high-level performance results. The HHS Summary of Performance
and Financial Information Report summarizes key past and planned performance and financial
information.
                      Message from the Inspector General
Dear Reader:

I am pleased to present the Fiscal Year (FY) 2011 Online Performance Appendix to accompany
the U.S. Department of Health and Human Services’ (HHS) Office of Inspector General (OIG)
President’s budget request to Congress. Since its establishment in 1976, this office has
consistently achieved commendable results in fulfilling its mission to protect the integrity of
HHS programs and the health and welfare of the American public.

HHS OIG’s staff of more than 1,500 professionals carries out this mission through a nationwide
network of audits, evaluations, investigations, and enforcement and compliance activities
focused on HHS programs and participants. Our mission encompasses the more than 300
programs administered by HHS, at agencies such as the Centers for Medicare & Medicaid
Services, National Institutes of Health, Food and Drug Administration, Centers for Disease
Control and Prevention, and Administration for Children and Families. As required by statutes,
the majority of this office’s resources are directed toward safeguarding the integrity of the
Medicare and Medicaid programs and the health and welfare of their beneficiaries. Consistent
with our responsibility to oversee all departmental programs, we also focus considerable effort
on HHS’s other programs and management processes, including key issues, such as child support
enforcement, food and drug safety, conflict-of-interest and financial disclosure policies
governing HHS staff, and the integrity of departmental contracts and grants management
processes and transactions.

As HHS programs and operations continue to grow in size, scope, and complexity, it is essential
that they be simultaneously protected against threats of fraud, waste, and abuse. In FY 2009,
OIG’s contributions to safeguarding HHS programs from threats of fraud, waste, and abuse and
to promoting economy, efficiency, and effectiveness in HHS programs included:

      $2.96 billion in expected HHS receivables that were court ordered or agreed to be paid
       through civil settlements that resulted from cases developed by OIG investigators;
      $463 million in audit recoveries that were agreed to be pursued by HHS program
       managers as a result of OIG audit disallowance recommendations;
      a ratio of $17.5 to $1 return on investment measuring the efficiency of OIG’s health care
       oversight efforts, continuing its trend of increasing expected recoveries in the reporting
       period ending in FY 2009; and
      112 of OIG’s quality and management improvement recommendations that HHS program
       managers accepted and agreed to implement.

This report describes OIG’s accomplishments in several key aspects. At the time of this writing,
there were no known weaknesses in the completeness or reliability of the information in this
report.


                                            Daniel R. Levinson
                                            Inspector General
                             FY 2011 Online Performance Appendix
                             U.S. Department of Health and Human Services
                                      Office of Inspector General

Section                                                                                                                            Page

Summary of Targets and Results ..............................................................................................1

Performance Detail ...................................................................................................................2

Data Source and Validation ......................................................................................................8

Agency Support for HHS Strategic Plan ..................................................................................9

Full Cost Table for OIG ............................................................................................................10

Summary of Findings and Recommendations
  From Completed Program Evaluations .................................................................................12

Slight Deviations Between Targets and Actual Results ...........................................................12

Discontinued Performance Measures .......................................................................................12

Disclosure of Assistance by Non-Federal Parties .....................................................................12
Online Performance Appendix                   Department of Health and Human Services
                                                            Office of Inspector General


                       Summary of Targets and Results

                                      Percent of Targets      Total
Fiscal    Total      Targets with                                         Percent of
                                         with Results        Targets
Year     Targets   Results Reported                                      Targets Met
                                          Reported            Met
 2006      3              3                 100%                3            100%
 2007      3              3                 100%                3            100%
 2008      3              3                 100%                3            100%
 2009      3              3                 100%                3            100%
 2010      3              0                  NA                NA             NA
 2011      3              0                  NA                NA             NA




                                                                                Page 1
Online Performance Appendix                             Department of Health and Human Services
                                                                      Office of Inspector General


                                     Performance Detail
The Department of Health and Human Services (HHS) Office of Inspector General (OIG) Fiscal
Year (FY) 2011 Online Performance Appendix uses three key measures to express progress in
accomplishing OIG’s mission of combating fraud, waste, and abuse and promoting economy,
efficiency, and effectiveness in HHS programs and operations. These performance measures are
the:

   3-year moving average of expected recoveries from OIG’s health care oversight activities
    that resulted in investigative receivables and audit disallowances,
   3-year moving average of the expected return on investment from OIG’s health care
    oversight activities that resulted in investigative receivables and audit disallowances, and
   number of accepted quality and management improvement recommendations.
These measures reflect the culmination of investigation, audit, and evaluation efforts initiated in
prior years. Moreover, these measures are expressions of HHS OIG’s joint success and
interdependence with a network of program integrity partners at all levels of government. For
example, HHS OIG investigators and attorneys work closely with the Department of Justice,
State Medicaid Fraud Control Units, and local law enforcement organizations to develop cases
and pursue appropriate enforcement actions, which often include criminal or administrative
sanctions and restitution to the Federal and State Governments and other affected parties.
Similarly, OIG audits and evaluations generate findings and recommendations intended to
achieve cost savings or program improvements. OIG does not have the authority to implement
these corrective actions; instead, OIG recommendations inform Congress and the HHS program
officials of potential cost disallowances and corrective actions that may be taken to address the
vulnerabilities OIG identified.

Summaries of OIG’s implemented and unimplemented program and management improvement
recommendations are reported in the Semiannual Report to Congress and the Compendium of
Unimplemented OIG Recommendations, which are available in the “Publications” section of the
OIG Web site.

       Performance Measure Summary and Reporting for “Expected Recoveries” and
       “Return on Investment”

“Expected recoveries” resulting from OIG’s health care oversight quantify the expected financial
benefit to the Government that results directly from OIG’s work. Expected recoveries are
composed of financial receivables to the Federal Government from:

   expected funds received as a result of successful prosecutions, court-ordered restitution,
    and out-of-court settlements;
   audit disallowances that HHS program management has agreed to recoup; and
   administrative enforcement actions during a given reporting period.



                                                                                             Page 2
Online Performance Appendix                            Department of Health and Human Services
                                                                     Office of Inspector General

Once OIG determines expected recoveries for a reporting period, a return-on-investment estimate
is calculated. Return on investment is the ratio of expected recoveries to OIG’s annual operating
budget; the result is an expression of the expected financial benefit to the Federal Government
for funding OIG oversight activities. For example, a return on investment of $10:$1 would
indicate that for every $1 spent by OIG, the Federal Government expects to receive $10 in
financial recoveries.

For both performance measures, expected recoveries and return on investment, performance is
reported using a 3-year moving average. This methodology recognizes the inherent
unpredictability in audit and investigative outcomes. It also takes into account the time
necessary to complete complex audits and investigations and to recover misspent funds identified
during those inquiries. Thus, the 3-year moving average accounts for year-to-year variability
and provides a more accurate depiction of results over time.

                         Measure            FY      Target            Result
              1.1.1: Three-year moving      2011    $3,300      TBD, October 2012
              average of expected
              recoveries resulting from     2010    $3,400      TBD, October 2011
              OIG's health care oversight   2009    $3,470   $3,701 (Target Exceeded)
              (Dollars in millions)
              (Outcome)                     2008    $2,623   $3,268 (Target Exceeded)
                                            2007    $2,460   $2,835 (Target Exceeded)
                                            2006    $2,580   $2,678 (Target Exceeded)



                        Measure              FY     Target           Result
              1.1.2: Three-year moving      2011    $13.0       TBD, October 2012
              average of the return on
              investment resulting from     2010     $15.0      TBD, October 2011
              OIG’s health care oversight   2009     $16.8    $17.5 (Target Exceeded)
              (Outcome)
                                            2008     $13.5    $16.8 (Target Exceeded)
                                            2007     $11.4    $16.4 (Target Exceeded)
                                            2006     $11.9    $14.6 (Target Exceeded)


The expected recoveries resulting from OIG investigative and audit oversight of the Medicare
and Medicaid programs averaged $3.7 billion per year for the 3-year period from FY 2007
through FY 2009 and exceeded expected recoveries from all previous reporting periods. These
results include an average of more than $2.5 billion in investigative receivables and $1.2 billion
in audit disallowances per year. The corresponding return on investment for OIG oversight of
the Medicare and Medicaid programs for the same 3-year reporting period was $17.5:$1. The
line graph below shows the relationship between the annual and 3-year moving averages of OIG
expected recoveries from health care activities from FY 2003 through FY 2009 and estimates for
FY 2010 and FY 2011. For 5 of the 7 years between FY 2003 and FY 2009, the 3-year moving
average was a reliable approximation of the actual expected recoveries that occurred.



                                                                                           Page 3
Online Performance Appendix                                                           Department of Health and Human Services
                                                                                                    Office of Inspector General


                                          Comparision of Annual and 3-Year Moving Average
                                           of Expected Recoveries Resulting From HHS OIG
                                                  Medicare and Medicaid Oversight
                                     $4,500
                                     $4,000
                                     $3,500
            Expected Recoveries
             (Dollars in Millions)




                                     $3,000
                                     $2,500
                                     $2,000
                                     $1,500
                                     $1,000
                                      $500
                                        $0
                                              FY 2004   FY 2005   FY 2006   FY 2007    FY 2008   FY 2009   FY 2010    FY 2011
                                 Annual Expected Recoveries                                                Estimate   Estimate
                                 3-Year Moving Average of Expected Recoveries


The methodology for establishing expected recoveries and return-on-investment targets is based
on a combination of actual prior year data and estimated future year data using 3-year moving
averages and consultation with OIG subject matter experts about the composition of the
workload during a given period. As mentioned above, the moving average methodology for
target setting is intended, in part, to lessen any potentially large variations in expected recoveries
resulting from OIG enforcement actions from year to year. Even so, the variations are taken into
account in the target-setting process. As an example, in FY 2007, $4.1 billion in expected
recoveries resulted from Medicare and Medicaid oversight, which was the highest in OIG’s
history and the result of several large settlements or judgments involving pharmaceutical
companies and hospital chains. (Summaries of these can be found in the OIG’s previous
semiannual reports to Congress on the OIG Web site.) The FY 2010 and FY 2011 targets
established in this performance budget are below the actual performance in FY 2009 because
several large settlements that were reported in FY 2007 are no longer included in the 3-year
moving average of expected recoveries beginning in FY 2010. Moreover, estimated increases in
OIG’s budget obligations in FY 2011 related to the Medicare and Medicaid programs are
included in the denominator of the return-on-investment calculation even though any possible
expected recoveries that would result from that investment would most likely be reported in FY
2012 or FY 2013.

Samples of the outcome-oriented descriptions of HHS OIG efforts that reached resolution in
FY 2009 and are reported in the OIG semiannual reports to Congress include:

   Pfizer, Inc., Enters Into Settlement for Marketing and Promotion Practices. Pfizer, Inc.,
    entered into a $1 billion civil False Claims Act settlement with the United States in
    connection with allegations relating to marketing and promotion practices associated with
    the anti-inflammatory drug Bextra and several other drugs. The settlement agreement is
    part of a global criminal, civil, and administrative settlement with Pfizer and its


                                                                                                                                 Page 4
Online Performance Appendix                            Department of Health and Human Services
                                                                     Office of Inspector General

    subsidiary, Pharmacia and Upjohn Company, Inc., which also includes a comprehensive
    5-year corporate integrity agreement between Pfizer and OIG.

   Medicare Fraud Strike Force Operations Lead to Sentencing of Seven Miami-Area
    Residents in Medicare Infusion Fraud Scheme. Seven employees of a Miami, Florida,
    infusion clinic were ordered to pay $19.8 million in restitution and sentenced to prison
    terms ranging from 37 to 97 months. In their guilty pleas, the individuals admitted to
    activities including manipulating patients’ blood samples to generate false medical
    records, ordering and administering medications to treat conditions that were falsely
    documented with fraudulent test results, and billing Medicare for services that were
    medically unnecessary or were never provided.

   Medicaid Personal Care Claims Made by Providers in New York City. In an audit of
    New York State Medicaid claims, OIG estimated that New York State improperly
    claimed $275.3 million in Federal Medicaid reimbursement for some personal care
    claims submitted by providers in New York City during calendar years 2004 through
    2006. The improper claims occurred because the State did not adequately monitor New
    York City’s personal care services program for compliance with Federal and State
    requirements. OIG recommended that the State refund $275.3 million, work with CMS
    to resolve two Consumer Directed Personal Assistance Program (CDPAP) claims,
    improve its monitoring of New York City’s personal care services program, and
    promulgate specific regulations related to CDPAP claims.

       Performance Measure Summary and Reporting for “Number of Accepted Quality
       and Management Improvement Recommendations”

OIG also reports the “number of quality and management improvement recommendations”
generated by OIG audits and evaluations during a reporting period. This performance measure
captures an important aspect of OIG’s efforts to identify and recommend corrections to systemic
weaknesses in HHS program administration and policy implementation. The measure also
reflects a significant aspect of OIG’s contribution to improving the efficiency and effectiveness
of HHS programs and operations.

When OIG completes an inquiry, such as an audit or evaluation, that leads to a report that
includes recommendations for program managers to disallow costs or pursue administrative or
policy improvements, HHS program managers have a fixed period of time to concur or
nonconcur with each recommendation. The implementation of OIG recommendations may be
affected by the availability of resources for implementation and other factors. As a result, some
OIG recommendations are accepted by program managers but not immediately implemented.

During FY 2009, HHS operating and staff divisions accepted 112 of OIG’s quality and
management improvement recommendations. This result exceeded the annual target of 85.
OIG’s FY 2010 and FY 2011 workload is likely to result in a similar number of
recommendations, so the performance targets for accepted recommendations has been increased
to reflect this expectation.


                                                                                               Page 5
Online Performance Appendix                            Department of Health and Human Services
                                                                     Office of Inspector General


                      Measure             FY        Target             Result
              1.1.3: Number of           2011        120         TBD, October 2012
              accepted quality and
              management                 2010        110         TBD, October 2011
              improvement
              recommendations            2009         73        112 (Target Exceeded)
              (Outcome)
                                         2008         75        85 (Target Exceeded)

                                         2007         75        88 (Target Exceeded)

                                         2006         70        116 (Target Exceeded)


Summaries of the audits and evaluations that reached resolution during FY 2009 and contributed
to this performance measure are included in the OIG semiannual reports to Congress, which are
located in the “Publications” section of the OIG Web site.

Samples of the outcome-oriented descriptions of HHS OIG efforts that reached resolution in
FY 2009 include:

   Reviews of State and Local Pandemic Influenza Preparedness. In two reports related to
    States’ and localities’ pandemic influenza preparedness, OIG made recommendations to
    improve the capacity of the Nation’s State and local public health infrastructure to
    prepare for and respond to pandemic influenza.

    In one study, OIG found that although the majority of reviewed localities had begun
    planning to distribute and dispense vaccines and antiviral drugs, the preparedness plans
    reviewed did not address most of the vaccine and antiviral drug distribution and
    dispensing preparedness items identified in HHS guidance. Further, although all of the
    selected localities conducted exercises related to vaccine and antiviral drug distribution
    and dispensing, most did not create after-action reports and improvement plans for these
    exercises.

    In another study, OIG found that although the reviewed States and localities are making
    progress in preparing for a medical surge, fewer than half of the selected localities had
    started to recruit the medical volunteers required to respond to a medical surge and that
    none of the States reviewed had implemented electronic systems to manage volunteers.
    Moreover, although all of the reviewed localities had acquired limited medical equipment
    for a pandemic, only three of the five States reviewed had electronic systems to track
    beds and equipment. This study also highlighted the fact that most of the reviewed
    localities had not identified guidelines for altering triage, admission, and patient care
    during a pandemic. As a result of these studies, the Centers for Disease Control and
    Prevention referenced OIG findings and recommendations in its March 2008 H1N1
    Vaccination Campaign Planning Checklist.

   Barriers to the Food and Drug Administration’s Response to Food Emergencies. In two
    reviews, OIG addressed Food and Drug Administration’s (FDA) responsibility for


                                                                                            Page 6
Online Performance Appendix                          Department of Health and Human Services
                                                                   Office of Inspector General

  overseeing the safety of human and pet food supplies. These reviews described FDA’s
  difficulties in identifying and removing contaminated products from store shelves. Both
  reviews found that additional statutory authority and guidance to the industry would
  strengthen FDA’s effectiveness and its ability to respond to a contamination of human
  and pet food.

  One review found that in the event of a food emergency, FDA would likely have
  difficulty in tracing food products through the food supply chain. Only 5 of the
  40 products OIG reviewed were traceable through each stage of the food supply chain.
  For four products, the facilities that handled the products could not be identified.
  Furthermore, 59 percent of the facilities reviewed did not meet FDA’s requirements to
  maintain records about their sources, recipients, and transporters, and 25 percent were not
  aware of these requirements. The recommendations resulting from this review suggested
  that FDA consider seeking additional statutory authority to strengthen its lot-specific
  information requirements and to request facilities’ records at any time; that FDA work
  with the industry to develop needed guidance; and that FDA address issues related to
  mixing raw food products from a large number of farms. FDA agreed to consider these
  recommendations.

  In the second review, which was conducted in response to a request from the Senate
  Committee on Agriculture, Nutrition, and Forestry, OIG found that FDA did not have
  statutory authority to require pet food manufacturers or importers to initiate recalls of
  contaminated food or to assess penalties for recall violations. Furthermore, FDA’s
  existing regulations were issued as nonbinding recall guidance for firms. OIG found that
  FDA’s lack of authority, coupled with its sometimes lax adherence to its recall guidance
  and internal procedures, limited FDA’s ability to ensure that contaminated pet food was
  promptly removed from retailers’ shelves. OIG’s report contained detailed
  recommendations for strengthening FDA’s recall authority and improving its monitoring
  of recalls. FDA agreed or agreed in principle with all of our recommendations.




                                                                                          Page 7
Online Performance Appendix                          Department of Health and Human Services
                                                                   Office of Inspector General


                             Data Source and Validation
     Unique
                            Data Source                        Data Validation
    Identifier
      1.1.1      OIG data systems that track audit   Estimates of expected recoveries
                 disallowances, judicial and         are recorded in OIG data systems
                 administrative adjudications, and   when (1) program managers agree
                 out-of-court settlements.           to disallow and pursue recovery of
                                                     questioned costs, (2) judicial and
                                                     administrative adjudications are
                                                     established, or (3) out-of-court
                                                     settlements are agreed upon.
      1.1.2      OIG data systems that track audit   See “Data Validation” for measure
                 disallowances, judicial and         1.1.1.
                 administrative adjudications, and
                 out-of-court settlements, and the
                 OIG operating budget in a given
                 year.
      1.1.3      OIG data systems that track         OIG follows an established
                 reports and recommendations.        process for identifying and
                                                     validating OIG-wide tracking and
                                                     reporting of accepted
                                                     recommendations.




                                                                                          Page 8
Online Performance Appendix                               Department of Health and Human Services
                                                                        Office of Inspector General


                         Agency Support for HHS Strategic Plan
OIG contributes to the HHS Strategic Plan directly through enforcement and compliance
activities and indirectly through its reviews and recommendations for making program
improvements that align with specific HHS strategic goals. The following table identifies the
HHS Strategic Goals with which OIG’s program integrity activities correspond most directly by
marking an “X” in the cells that where there is overlap.

                                                                                       OIG Goal: Make a
                                                                                       positive impact on
HHS Strategic Goals and Objectives                                                      HHS programs
1 Health Care Improve the safety, quality, affordability and accessibility of health
care, including behavioral health care and long-term care.
1.1 Broaden health insurance and long-term care coverage.
1.2 Increase health care service availability and accessibility.
1.3 Improve health care quality, safety and cost/value.                                        X
1.4 Recruit, develop, and retain a competent health care workforce.
2 Public Health Promotion and Protection, Disease Prevention, and Emergency
Preparedness Prevent and control disease, injury, illness and disability across the
lifespan, and protect the public from infectious, occupational, environmental and
terrorist threats.
2.1 Prevent the spread of infectious diseases.
2.2 Protect the public against injuries and environmental threats.
2.3 Promote and encourage preventive health care, including mental health, lifelong
                                                                                               X
healthy behaviors and recovery.
2.4 Prepare for and respond to natural and man-made disasters.                                 X
3 Human Services Promote the economic and social well-being of individuals,
families, and communities.
3.1 Promote the economic independence and social well-being of individuals and
                                                                                               X
families across the lifespan.
3.2 Protect the safety and foster the well-being of children and youth.
3.3 Encourage the development of strong, healthy, and supportive communities.
3.4 Address the needs, strengths and abilities of vulnerable populations.
4 Scientific Research and Development Advance scientific and biomedical research
and development related to health and human services.
4.1 Strengthen the pool of qualified health and behavioral science researchers.
4.2 Increase basic scientific knowledge to improve human health and human
development.
4.3 Conduct and oversee applied research to improve health and well-being.                     X
4.4 Communicate and transfer research results into clinical, public health and human
service practice.




                                                                                                   Page 9
Online Performance Appendix                                           Department of Health and Human Services
                                                                                    Office of Inspector General

                                          Full Cost Table for OIG 1
                                                  (Dollars in Millions)

HHS Strategic Goals and Objectives                                                  FY 2009        FY 2010        FY 2011
1 Health Care Improve the safety, quality, affordability and
accessibility of health care, including behavioral health care and                  $246.172 $231.995 $272.035
long-term care.
1.1 Broaden health insurance and long-term care coverage.
1.2 Increase health care service availability and accessibility.
1.3 Improve health care quality, safety and cost/value.                             $246.172 $231.995 $272.035
1.4 Recruit, develop, and retain a competent health care workforce.
2 Public Health Promotion and Protection, Disease Prevention,
and Emergency Preparedness Prevent and control disease, injury,
illness and disability across the lifespan, and protect the public from
                                                                                    $17.105         $20.112        $20.702
infectious, occupational, environmental and terrorist threats.
2.1 Prevent the spread of infectious diseases.
2.2 Protect the public against injuries and environmental threats.
2.3 Promote and encourage preventive health care, including mental
                                                                                      $6.037         $7.039         $7.245
health, lifelong healthy behaviors and recovery.
2.4 Prepare for and respond to natural and man-made disasters.                       $11.068        $13.073        $13.457
3 Human Services Promote the economic and social well-being of
individuals, families, and communities.
                                                                                    $19.118         $19.106        $19.667
3.1 Promote the economic independence and social well-being of
                                                                                     $19.118        $19.106        $19.667
individuals and families across the lifespan.
3.2 Protect the safety and foster the well-being of children and
youth.
3.3 Encourage the development of strong, healthy, and supportive
communities.
3.4 Address the needs, strengths and abilities of vulnerable
populations.
4 Scientific Research and Development Advance scientific and
biomedical research and development related to health and human                      $9.056         $11.061        $11.385
services.
4.1 Strengthen the pool of qualified health and behavioral science
researchers.
4.2 Increase basic scientific knowledge to improve human health
and human development.
4.3 Conduct and oversee applied research to improve health and
                                                                                      $9.056        $11.061        $11.385
well-being.
4.4 Communicate and transfer research results into clinical, public
health and human service practice.
Total, OIG Budget Authority                                                         $291.451 $282.274 $323.789

1   Amounts in this table reflect budget authority and do not include carry-over funds. For additional information about OIG’s
    planned oversight efforts, see the FY 2010 Work Plan. For information about OIG’s accomplished oversight efforts, see the
    FY 2009 semiannual reports to Congress. Both publications are located on the OIG Web site at:
    http://oig.hhs.gov/publications.asp. The FY 2009 budget does not include amounts made available through the American
    Recovery and Reinvestment Act.




                                                                                                                    Page 10
Online Performance Appendix                             Department of Health and Human Services
                                                                      Office of Inspector General

OIG’s Underlying Contributions to the HHS Strategic Plan, FY 2007 through FY 2012
The HHS Strategic Plan outlines how the Department will advance its mission of enhancing the
health and well-being of Americans. The plan contains two sections that describe (1) the
Strategic Goals and Objectives deemed essential for achieving the HHS mission and (2) a set of
value-based commitments intended to ensure that the Department responsibly pursues the
accomplishment of its goals. The Strategic Goals and Objectives in the HHS Strategic Plan are
programmatically focused and correspond to specific HHS operating divisions and the programs
and initiatives operated by them. The value-based commitments, included in Chapter 6 of the
Plan, outline the Department’s dedication to “responsible stewardship and effective
management” of HHS resources by committing to “effective resource management” and
“effective planning, oversight, and strategic communications.”

OIG’s range of program integrity activities support the Department’s responsible stewardship of
taxpayer money, which includes combating fraud, waste, and abuse in all HHS programs. In
particular, OIG is directed, by law, to conduct independent and objective audits, evaluations,
analyses, and investigations to assess the effectiveness and efficiency of policy and program
implementation and to identify wrongdoers. These independent fact-finding inquiries and
associated recommendations strengthen the integrity of the Department’s programs. Although
OIG’s targeted oversight work may not directly address each HHS Strategic Goal and Objective,
OIG’s work conducted contributes indirectly to the accomplishment of all HHS Strategic Goals
and Objectives, which is consistent with OIG’s mission and the specific principles expressed in
Chapter 6 of the HHS Strategic Plan.

Segregating HHS’s costs by HHS strategic objective is an important way to convey the
Department’s commitment to its goals; however, not all HHS costs directly support a specific
Strategic Goal or Objective. In OIG oversight and compliance work, the results of discreet
oversight activities often encompass more than any single HHS strategic objective by addressing
underlying threats to the financial integrity of programs and the well-being of program
beneficiaries. In these instances, full cost figures provided in the table on page 10 are estimates.

Where possible, OIG costs are segregated based on HHS strategic objectives. In the instances
where it was not possible, costs are proportionately distributed across the HHS Strategic
Objectives for which OIG was able to report a contribution. The following list contains
examples of the functions that OIG performs that do not correspond directly to a specific HHS
Strategic Goal or Objective:

      conduct annual financial statement audits,
      conduct Federal Information Security Management Act audits,
      review single audits conducted on behalf of HHS, and
      provide the security detail for the Secretary’s protection.

The FY 2010 and FY 2011 estimates provided in the “Full Cost Table for OIG” table are
determined based on a combination of prior year staffing and OIG’s planned work for FY 2010.
Because OIG will not release the FY 2011 Work Plan until September 2010, estimates of the
OIG’s discretionary resources across HHS strategic goals for FY 2011 are approximate.
Furthermore, these estimates are likely to change in response to specific requests for targeted


                                                                                            Page 11
Online Performance Appendix                           Department of Health and Human Services
                                                                    Office of Inspector General

program oversight made by the Administration or Congress or as the result of unforeseen events
that highlight the need to prioritize certain studies.

                    Summary of Findings and Recommendations
                      From Completed Program Evaluations
There were no program evaluations of OIG during FY 2009.

               Slight Deviations Between Targets and Actual Results
The FY 2009 performance targets for the following measures were set at an approximate level,
and the deviation from that level was slight. There was no effect on overall program or activity
performance.

                                  Measure Unique Identifier
             1.1 Three-year moving average of expected recoveries resulting from
                 health care oversight and enforcement
             1.2 Three-year moving average of OIG health care return on
                 investment
             1.3 Number of accepted quality and management improvement
                 recommendations

                         Discontinued Performance Measures
OIG does not have any discontinued performance measures to report.

                   Disclosure of Assistance by Non-Federal Parties
OIG did not receive any material assistance from non-Federal parties in the preparation of the
FY 2011 Online Performance Appendix.




                                                                                         Page 12
